Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        MEDICARE COMPLIANCE
              REVIEW OF
       GENESIS MEDICAL CENTER
          FOR 2010 AND 2011




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-07-13-05041
                      Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Genesis Medical Center did not fully comply with Medicare requirements for billing inpatient
and outpatient services, resulting in overpayments of approximately $434,000 over more than
2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Genesis Medical Center (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 317-bed acute care hospital located in Davenport, Iowa. Medicare paid the
Hospital approximately $169 million for 15,273 inpatient and 74,753 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $6,143,726 in Medicare payments to the Hospital for 357 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 283
inpatient and 74 outpatient claims. Of the 357 claims, 313 claims had dates of service in CY
2010 or CY 2011, and 44 claims (involving inpatient and outpatient manufacturer credits for
replaced medical devices) had dates of service in CY 2009 or CY 2012.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 286 of the 357 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 71 claims, resulting in overpayments of $434,306 for CYs
2010 and 2011 (44 claims) and CYs 2009 and 2012 (27 claims). Specifically, 56 inpatient


Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                             i
claims had billing errors, resulting in overpayments of $296,219, and 15 outpatient claims had
billing errors, resulting in overpayments of $138,087. These errors occurred primarily because
the Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $434,306, consisting of $296,219 in overpayments for
        56 incorrectly billed inpatient claims and $138,087 in overpayments for 15 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS

In written comments on our draft report, the Hospital described corrective actions that it had
taken or planned to take in accordance with our recommendations. The Hospital pointed out that
61 of the 71 claims for which we had identified billing errors involved manufacturer credits for
replaced medical devices, and said that the rules governing the correct billing of these devices
are not well understood by many in the industry. The Hospital added, though, that it was in the
process of refunding all overpayments to the Medicare contractor. The Hospital also described
corrective actions that it had taken to further enhance and strengthen its controls.




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                         ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Genesis Medical Center.................................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4
            Incorrectly Billed as Inpatient .......................................................................................4
            Incorrectly Billed Diagnosis-Related Group Code .......................................................5

       Billing Errors Associated With Outpatient Claims................................................................5
             Manufacturer Credits for Replaced Medical Devices Not Reported ............................5
             Insufficiently Documented Procedures .........................................................................6

RECOMMENDATIONS ...............................................................................................................6

AUDITEE COMMENTS...............................................................................................................6

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................7

        B: Results of Review by Risk Area .....................................................................................9

        C: Auditee Comments ........................................................................................................10




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                                                         iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Genesis Medical Center (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                           1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    inpatient short stays,

    •    inpatient and outpatient claims paid in excess of charges,

    •    inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •    inpatient claims billed with high severity level DRG codes,

    •    inpatient claims with payments greater than $150,000,

    •    inpatient claims billed with kyphoplasty services,

    •    outpatient claims billed with modifiers,

    •    outpatient claims with payments greater than $25,000, and

    •    outpatient claims billed with Doxorubicin Hydrochloride.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).



1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                         2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states that providers must use HCPCS
codes for most outpatient services (chapter 23, § 20.3).

Genesis Medical Center

The Hospital is a 317-bed acute care hospital located in Davenport, Iowa. Medicare paid the
Hospital approximately $169 million for 15,273 inpatient and 74,753 outpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $6,143,726 in Medicare payments to the Hospital for 357 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 283
inpatient and 74 outpatient claims. Of the 357 claims, 313 claims had dates of service in CY
2010 or CY 2011, and 44 claims (involving inpatient and outpatient manufacturer credits for
replaced medical devices) had dates of service in CY 2009 or CY 2012. 2 We focused our review
on the risk areas that we had identified as a result of previous OIG reviews at other hospitals.
We evaluated compliance with selected billing requirements but did not use medical review to
determine whether the services were medically necessary. This report focuses on selected risk
areas and does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 286 of the 357 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 71 claims, resulting in overpayments of $434,306 for CYs
2010 and 2011 (44 claims) and CYs 2009 and 2012 (27 claims). Specifically, 56 inpatient
claims had billing errors, resulting in overpayments of $296,219, and 15 outpatient claims had
billing errors, resulting in overpayments of $138,087. These errors occurred primarily because
the Hospital did not have adequate controls to prevent the incorrect billing of Medicare claims
within the selected risk areas that contained errors. For the results of our review by risk area, see
Appendix B.

2
 We selected these 44 claims for review because the risk area that involves manufacturer credits for replaced
medical devices has a high risk of billing errors.


Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                            3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 56 of 283 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $296,219.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 53 out of 283 selected claims, the Hospital received reportable medical device credits from
manufacturers but did not adjust its inpatient claims with the appropriate condition and value
codes to reduce payment as required. (Of the 53 claims, 23 had dates of service in CY 2009, 16
had dates of service in CY 2010, 12 had dates of service in CY 2011, and 2 had dates of service
in CY 2012.) These overpayments occurred because the Hospital did not have adequate controls
to report the appropriate condition and value codes to accurately reflect credits it had received
from manufacturers. As a result of these errors, the Hospital received overpayments of
$263,699.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

According to chapter 1, section 10, of the CMS Benefit Policy Manual (Pub. No. 100-02), factors
that determine whether an inpatient admission is medically necessary include:

    •   the severity of the signs and symptoms exhibited by the patient;

    •   the medical predictability of something adverse happening to the patient;

    •   the need for diagnostic studies that appropriately are outpatient services (i.e., their
        performance does not ordinarily require the patient to remain at the hospital for 24 hours
        or more) to assist in assessing whether the patient should be admitted; and

    •   the availability of diagnostic procedures at the time when and at the location where the
        patient presents.

For 2 out of 283 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                               4
Hospital attributed the incorrect billing to clerical error. As a result of these errors, the Hospital
received overpayments of $19,239. 3

Incorrectly Billed Diagnosis-Related Group Code

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). In addition, the Manual states: “In order
to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 1 out of 283 selected claims, the Hospital billed Medicare for an incorrect DRG code that
was not supported in the medical record. The Hospital attributed this overpayment to human
error. As a result of this error, the Hospital received an overpayment of $13,281.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 15 of 74 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $138,087.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 4

For 8 out of 74 selected claims, the Hospital received full credit for replaced medical devices but
did not report the “FB” modifier and reduced charges on its claims. (Of the eight claims, one
had a date of service in CY 2010, six had dates of service in CY 2011, and one had a date of
service in CY 2012.) These overpayments occurred because the Hospital did not have adequate
controls to report the appropriate modifiers and charges to reflect credits received from
manufacturers. As a result of these errors, the Hospital received overpayments of $123,025.


3
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before the issuance of our report.
4
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                            5
Insufficiently Documented Procedures

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

For 7 out of 74 selected claims, the Hospital submitted the claims to Medicare with unsupported
HCPCS codes. The Hospital attributed these overpayments to coding errors. As a result of these
errors, the Hospital received overpayments of $15,062.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $434,306, consisting of $296,219 in overpayments for
        56 incorrectly billed inpatient claims and $138,087 in overpayments for 15 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                      AUDITEE COMMENTS

In written comments on our draft report, the Hospital described corrective actions that it had
taken or planned to take in accordance with our recommendations. The Hospital pointed out that
61 of the 71 claims for which we had identified billing errors involved manufacturer credits for
replaced medical devices, and said that the rules governing the correct billing of these devices
are not well understood by many in the industry. The Hospital added, though, that it did not
have adequate controls in place to process these credits and correctly bill Medicare for them.

The Hospital stated that it was in the process of refunding all overpayments to the Medicare
contractor. The Hospital also described corrective actions that it had taken to further enhance
and strengthen its controls.

The Hospital’s comments appear in their entirety as Appendix C.




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                          6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $6,143,726 in Medicare payments to the Hospital for 357 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 283
inpatient and 74 outpatient claims. Of the 357 claims, 313 claims had dates of service in CY
2010 or CY 2011, and 44 claims (involving inpatient and outpatient manufacturer credits for
replaced medical devices) had dates of service in CY 2009 or CY 2012 (footnote 2).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements but did
not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from January 2013 to May 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2009 through 2012;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 357 claims (283 inpatient and 74 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                             7
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on May 22, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                             8
                           APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                                    Claims
                                                                                  Value of           With            Value of
                                                              Selected            Selected          Over-             Over-
                    Risk Area                                 Claims              Claims           payments          payments
Inpatient
Manufacturer Credits for Replaced Medical
                                                                        65         $1,334,451                53             $263,699
Devices
Short Stays                                                             52             412,682                2               19,239

Claims Paid in Excess of Charges                                        32             453,598                1               13,281
Hospital-Acquired Conditions and Present-on-
                                                                        56           1,244,009                0                   0
Admission Indicator Reporting
Claims Billed With High Severity Level
                                                                        74           1,086,402                0                   0
Diagnosis-Related Group Codes
Claims With Payments Greater Than $150,000                                3            480,879                0                   0

Claims Billed With Kyphoplasty Services                                   1               6,124               0                   0
 Inpatient Totals                                                      283         $5,018,145                56             $296,219


Outpatient
Manufacturer Credits for Replaced Medical
                                                                        28           $285,604                 8             $123,025
Devices
Claims Billed With Modifiers                                            26             249,363                6               12,185

Claims Paid in Excess of Charges                                          5             54,061                1                2,877

Claims With Payments Greater Than $25,000                               14             532,188                0                   0

Claims Billed With Doxorubicin Hydrochloride                              1               4,365               0                   0
 Outpatient Totals                                                      74         $1,125,581                15             $138,087


 Inpatient and Outpatient Totals                                       357         $6,143,726                71             $434,306

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
       outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.




       Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                           9
                                 APPENDIX C: AUDITEE COMMENTS




             GENESIS

                    August 6, 2014

                    Mr. Patrick J. Cogley
                    Regional Inspector General for Audit Services
                    HHS Office of the Inspector General
                    Office of Audit Services, Region VII
                    601 East 12'h Street, Room 0429
                    Kansas City, MO 66106

                    Re:     Draft ofHHS-OIG Audit Services Report Number A-07-13-05041

                    Dear Mr. Cogley:

                    Thank you for providing Genesis Medical Center ("Genesis") the draft report identified
                    above, and for allowing us to respond. Genesis is committed to the highest ethical
                    business standards, with Integrity a key value that supports our mission to provide
                    compassionate, quality care to all those in need.

                    We understand that this audit covered $6,143,726 in Medicare payments to Genesis for
                    357 inpatient and outpatient claims judgmentally selected as potentially at risk for billing
                    errors for dates of service ranging from CY 2009 to CY 2012. OIG has identified 71
                    claims paid in error resulting in an overpayment of $434,306, showing 93 percent of
                    payments made in compliance with billing rules and regulations. For Genesis, one issue
                    brought our audit results down from what would have been over 99 percent to 93 percent
                    compliance, that issue is medical device credits.

                     The OIG has stated that it elects the risk areas based upon the results of previous reviews
                     of other hospitals. It appears the rules of how to handle replacement devices that are
                     provided at no cost or significant discount (under warranty) by the medical device
                     manufacturer is not well understood by many in the industry, and is even the subj ect of
                     some dispute. Specifically, the issue of rebilling for credits for separate components,
                     such as lead wires, is a source of confusion. We hope that the January 1, 2014 CMS
                     changes for reporting full or partial credits of devices and leads, and the new unique
                     device identifiers now required by the FDA will make it easier for providers to fully
                     comply with billing rules in this area.




     Office of the President and CEO I Genesis Health System
     1227 E. Rusholme St. I Davenport, lA 52803 I 563.421.6510 I fax 563.421.6500 I www.genesishealth.com




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                               10
                  For Genesis, this issue accounts for 61 of the 71 total identified claims in error,
                  representing $386,724 of the total reported overpayment (89 percent). Genesis did not
                  have adequate controls in place to process such device credits and bill Medicare, and has
                  since instituted new processes and controls to correctly identify, track and correctly bill in
                  such cases. Genesis is in the process of refunding the overpayments with our Medicare
                  Administrative Contractor ("MAC").

                  The remaining 10 c laims account for $47,582 in overpayments. This amounts to 99
                  percent billing compliance for the non-medical device credit areas audited. Genesis is in
                  the process of refunding all overpayments with our MAC. We acknowledge that 2 out of
                  52 short stay inpatient claims should have been billed as outpatients, but believe this 96
                  percent accuracy evidences good controls in a difficult subject area. While we have
                  already conducted education based on these 2 cases, the "2 Midnight Rule" somewhat
                  alters our education and controls going forward. We concur that the remaining 8 claims
                  covering DRG and modifiers were in error. We concluded that these were the result of
                  human error and have conducted corrective education.

                  Genesis is committed to complying with all rules and regulations regarding billing
                  Medicare for services provided to members our community. We view this audit as a
                  learning opportunity, but also as a validation of the many controls Genesis has put in
                  place to ensure billing integrity.

                  We thank the audit team involved for their patience and courtesy throughout the audit
                  process.




                  Doug Cropper
                  Chief Executive Officer
                  Genesis Health System




Medicare Compliance Review of Genesis Medical Center (A-07-13-05041)                                               11
